Matthew T. Martens
+1 202 663 6921 (t)
+1 202 663 6363 (f)
matthew.martens@wilmerhale.com

February 26, 2021
By Electronic Filing
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

The North American Mission Board of the Southern Baptist Convention, Inc. v. Will
McRaney, No. 20-1158

Dear Mr. Harris,
I am counsel of record for petitioner in the above-captioned case. Pursuant to Rule 37.2(a),
petitioner hereby consents to the filing of amicus curiae briefs in support of either or neither
party, if filed within the time allowed by the Court’s rules.
Best regards,

Matthew T. Martens
Counsel of Record for Petitioner

cc:

William Harvey Barton, II (by electronic mail)
Counsel for Respondent

